                                UNITED STATES
                        NUCLEAR REGULATORY COMMISSION
                                 WASHINGTON, D.C. 20555-0001




OFFICE OF THE
INSPECTOR GENERAL


                                   September 29, 2011



MEMORANDUM TO:              R. William Borchardt
                            Executive Director for Operations




FROM:                       Stephen D. Dingbaum /RA/
                            Assistant Inspector General for Audits


SUBJECT:                    MEMORANDUM REPORT: AUDIT OF NRC’S INTERNAL
                            CONTROL OVER HEADQUARTERS FITNESS CENTER
                            MEMBERSHIP FEES (OIG-11-A-20)

OVERVIEW

At the request of the Office of Human Resources (HR), the Office of the Inspector
General (OIG) conducted an audit of the effectiveness of the Nuclear Regulatory
Commission’s (NRC) internal control over fitness center membership fees at
headquarters. OIG determined that effective internal controls are in place over fitness
center membership fees. Specifically, the agency recently implemented appropriate
actions to resolve self-indentified areas of concern. The agency’s actions facilitate the
handling of fitness center membership fees in an efficient and effective manner.

While effective internal controls over fitness center membership fees are in place, this
report conveys three observations that, if implemented, could further enhance
administrative functions concerning the fitness center contract and membership fees.
                 Audit of NRC’s Internal Control Over Headquarters Fitness Center Membership Fees



BACKGROUND

NRC offers a physical fitness program as part of its wellness services program for
agency employees. The fitness program was established to provide employees a
fitness strategy to enhance job performance, decrease absenteeism, and prepare
employees to meet the physical requirements of specified positions. This audit focused
on the headquarters onsite fitness center (fitness center), which currently has
approximately 700 members.

Fitness Center Contract

The agency’s current fitness center contract is with Aquila Fitness Consulting Systems,
LTD. (contractor), to provide a comprehensive, integrated fitness program for NRC
employees. The contractor provides services and personnel necessary to operate the
fitness center in the NRC headquarters complex in the Two White Flint North building.

Although this audit focused on headquarters fitness center membership fees, the
contract with Aquila has provisions for fitness center membership for NRC employees at
the regional offices, Technical Training Center, and remote sites.

                          NRC Headquarters Fitness Center




                                                          Source: OIG




                                              2
                  Audit of NRC’s Internal Control Over Headquarters Fitness Center Membership Fees

The current contract, effective June 1, 2010, contains a base year and four 1-year
option periods. NRC exercised the first option period from June 1, 2011, through
May 31, 2012, in the amount of approximately $331,000. The remaining option periods
cover the timeframe from June 1, 2012, through May 31, 2015. The potential contract
value, including the base year and four option periods, is approximately $1.7 million.

Program Administration and Funding

The Office of Human Resources (1) administers and manages NRC's fitness services
program, (2) manages the contract for these services, and (3) provides oversight of the
headquarters fitness center. These responsibilities have been primarily assigned to an
HR project officer. That office has approximately 0.4 full-time equivalents dedicated to
administering the fitness center contract.

The fitness center is funded, in part, by membership fees deducted from members' pay.
The contractor receives and accounts for membership fees, credits collections against
the total contract price for the current year, and bills the agency monthly, reflecting the
difference between the total contract price for the year and the fees generated from
memberships.

Agency Concerns

During June 2011, NRC staff informed OIG of three self-identified concerns involving
fitness center membership fees and discussed the agency’s actions to resolve them.
Specifically:

Concern Number 1. The HR project officer was responsible for transferring employee
payroll deductions, and cash and checks collected by the contractor from an interest
bearing account with the Energy Federal Credit Union (EFCU) to the contractor’s bank
account. The project officer and alternate were the only agency employees with
authority to access the EFCU account. This raised concerns over segregation of duties
and possible tax consequences.

Agency Resolution. The agency determined that the HR project officer and the
contractor were unnecessary third parties to this process. Through a contract
modification, the agency changed the payment process so that NRC’s payment agent,
the Department of Interior National Business Center, processes the payroll deductions
and deposits the membership fees directly into a bank account held by the contractor,
instead of depositing these membership fees into the EFCU account. As a control, the


                                               3
                      Audit of NRC’s Internal Control Over Headquarters Fitness Center Membership Fees

National Business Center transmits biweekly reports to the HR project officer, who
reconciles this information with the contractor’s monthly invoices.

Concern Number 2. The fitness center contract provided NRC employees the option
to pay membership fees through biweekly payroll deductions or by cash or check
annually, semiannually, or quarterly. As noted above, cash and checks were collected
by the contractor and deposited in the EFCU account for transfer to the contractor by
the HR project officer.

Agency Resolution. The agency determined that the handling of cash and checks by
contractor employees was not a good business practice and there were no checks and
balances over this process. Additionally, it was an administrative burden for both the
contractor and the HR project officer to ensure that funds were properly controlled and
transferred. Through a contract modification, options to pay membership fees by cash
or check were eliminated.1 Now, payroll deduction is the only payment method allowed.
Fitness center marketing materials and information on the agency’s internal and
external Web site were revised to reflect this contract change.

Concern Number 3. In general, employees paid a $25 initiation fee – by cash or
check – to join the fitness center.

Agency Resolution. The agency determined that the contract does not provide for
employees to pay a $25 initiation fee. The agency instructed the contractor to eliminate
this fee. The agency’s Web site marketing materials were also revised to reflect this
change.


OBJECTIVE

The audit objective was to evaluate the effectiveness of NRC’s internal control over
fitness center membership fees at headquarters.


RESULTS

OIG determined that effective internal controls are in place over fitness center
membership fees. However, this report conveys three observations that, if


1
    This contract modification did not change the membership fee amount paid by agency employees.

                                                    4
                 Audit of NRC’s Internal Control Over Headquarters Fitness Center Membership Fees

implemented, could further enhance administrative functions concerning the fitness
center contract and membership fees.

Observations for Agency Consideration

   1. Update NRC Management Directive and Handbook (MD) 10.122, Employee
      Assistance and Wellness Services Program. MD 10.122 states, “The medical
      director is the contractor’s representative responsible for the coordination,
      performance, and oversight of all aspects of the agencywide wellness program,
      including fitness” (emphasis added). The outdated MD 10.122 provision is the
      result of language in a prior NRC contract which encompassed all NRC health
      and wellness services.

   2. Develop written desk procedures for fitness center program management.
      Currently, the HR project officer performs tasks related to the management of the
      fitness center contract such as reconciling monthly contractor invoices with
      reports produced by the National Business Center to ensure that the agency is
      billed correctly. However, HR has not developed desk procedures to document
      the project officer’s routine activities.

   3. Distribute remaining EFCU funds. HR and the fitness center contractor
      maintained a joint bank account used to (1) deposit cash and checks collected by
      the contractor, (2) collect direct deposits from employee payroll deductions, and
      (3) make transfers to pay the contractor. Because of the changes in fitness
      center business processes implemented by the agency, this account, which has
      a balance in excess of $10,000, is no longer needed. HR froze the account upon
      identifying the above-listed concerns. Now that the concerns have been
      resolved, HR should distribute these funds as appropriate, and close the
      account.


AGENCY COMMENTS

OIG held an exit conference with the agency on September 26, 2011. Prior to this
meeting, the agency provided editorial comments which OIG incorporated as
appropriate. With respect to the funds remaining in the EFCU account, on September
28, 2011, the agency stated that they transferred the funds to the fitness center
contractor and closed the account.



                                              5
                  Audit of NRC’s Internal Control Over Headquarters Fitness Center Membership Fees

Agency management stated their agreement with the report and observations, and
opted not to provide formal comments.

SCOPE AND METHODOLOGY

Scope

This audit was conducted at NRC headquarters from June 2011 through August 2011.
The audit focused primarily on reviewing agency concerns and improvement actions
surrounding internal controls over membership fees. In addition, agency and bank
records associated with the fitness center were analyzed for the period June 2010
through June 2011.

Methodology

OIG reviewed Federal Government guidance applicable to the audit objective, including:

        Title 5 United States Code, Sections 7901, Health Service Programs, and 5946,
        Membership Fees; Expenses of Attendance at Meetings; Limitations.
        Federal Acquisition Regulation.
        Two Comptroller General Decisions related to fitness center billings and use of
        appropriated funds for fitness centers.
        MD 10.122, Employee Assistance and Wellness Services Program.

Also, as it related to the audit objective, OIG reviewed:

        The agency’s Collective Bargaining Agreement with the National Treasury
        Employees Union.
        The NRC fitness center contract and amendments, fitness center marketing
        materials.
        EFCU bank records.
        The NRC internal and external Web sites related to NRC’s fitness center.

OIG interviewed HR, Office of Administration, Office of the General Counsel, and
contractor officials to obtain their insights into the internal control over headquarters
fitness center membership fees and contracting practices.

We conducted this performance audit in accordance with generally accepted
Government auditing standards. Those standards require that the audit is planned and

                                               6
                  Audit of NRC’s Internal Control Over Headquarters Fitness Center Membership Fees

performed with the objective of obtaining sufficient, appropriate evidence to provide a
reasonable basis for any findings and conclusions based on the stated audit objective.
OIG believes that the evidence obtained provides a reasonable basis for the report
conclusions based on the audit objective. Internal controls related to the audit objective
were reviewed and analyzed. Throughout the audit, auditors were aware of the
possibility or existence of fraud, waste, or misuse in the program.

The audit work was conducted by Kathleen Stetson, Team Leader; Eric Rivera, Audit
Manager; Michael Steinberg, Senior Auditor; and Gail Butler, Analyst.




                                               7
Electronic Distribution

Edwin M. Hackett, Executive Director, Advisory Committee
  on Reactor Safeguards
E. Roy Hawkens, Chief Administrative Judge, Atomic Safety
  and Licensing Board Panel
Stephen G. Burns, General Counsel
Brooke D. Poole, Director, Office of Commission Appellate Adjudication
James E. Dyer, Chief Financial Officer
Margaret M. Doane, Director, Office of International Programs
Rebecca L. Schmidt, Director, Office of Congressional Affairs
Eliot B. Brenner, Director, Office of Public Affairs
Annette Vietti-Cook, Secretary of the Commission
R. William Borchardt, Executive Director for Operations
Michael F. Weber, Deputy Executive Director for Materials, Waste,
  Research, State, Tribal, and Compliance Programs, OEDO
Darren B. Ash, Deputy Executive Director
  for Corporate Management, OEDO
Martin J. Virgilio, Deputy Executive Director for Reactor
  and Preparedness Programs, OEDO
Nader Mamish, Assistant for Operations, OEDO
Kathryn O. Greene, Director, Office of Administration
Patrick D. Howard, Director, Computer Security Office
Roy P. Zimmerman, Director, Office of Enforcement
Cynthia Carpenter, Acting Director, Office of Federal and State Materials
  and Environmental Management Programs
Cheryl L. McCrary, Director, Office of Investigations
Thomas M. Boyce, Director, Office of Information Services
Miriam L. Cohen, Director, Office of Human Resources
Michael R. Johnson, Director, Office of New Reactors
Catherine Haney, Director, Office of Nuclear Material Safety
  and Safeguards
Eric J. Leeds, Director, Office of Nuclear Reactor Regulation
Brian W. Sheron, Director, Office of Nuclear Regulatory Research
Corenthis B. Kelley, Director, Office of Small Business and Civil Rights
James T. Wiggins, Director, Office of Nuclear Security
  and Incident Response
William M. Dean, Regional Administrator, Region I
Victor M. McCree, Regional Administrator, Region II
Mark A. Satorius, Regional Administrator, Region III
Elmo E. Collins, Jr., Regional Administrator, Region IV
